EXHIBIT A

Case: 19-3170

Document: 13

Page: 1

Date Filed: 07/02/2020

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 19-3170

ANGELA DE JESUS-CONCEPCION,
Appellant
v.
UNITED STATES OF AMERICA

(D.C. No. 2-17-cv-12152)

SUR PETITION FOR REHEARING
Before: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., KRAUSE, RESTREPO, BIBAS, PORTER,
MATEY, PHIPPS and SCIRICA,* Circuit Judges
The petition for rehearing filed by appellant in the above-entitled case having been
submitted to the judges who participated in the decision of this Court and to all the other
available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
BY THE COURT,
s/ L. Felipe Restrepo
Circuit Judge
Dated: July 2, 2020
Lmr/cc: Angela de Jesus Concepcion
Mark E. Coyne

*

Judge Scirica’s vote is limited to panel rehearing only.

A1

EXHIBIT B

Case: 19-3170

Document: 11-2

Page: 1

Date Filed: 04/10/2020

DLD-142
March 12, 2020
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 19-3170
ANGELA DE JESUS-CONCEPCION, Appellant
VS.
UNITED STATES OF AMERICA
(D.N.J. Civ. No. 17-cv-12152)
Present:

RESTREPO, PORTER and SCIRICA, Circuit Judges
Submitted is Appellant’s request for a certificate of appealability
under 28 U.S.C. § 2253(c)(1)
in the above-captioned case.
Respectfully,

Clerk
________________________________ORDER_________________________________
Appellant’s application for a certificate of appealability is denied. Jurists of
reason would not debate the District Court’s conclusion that Appellant did not show that
her Sixth Amendment right to the effective assistance of counsel was violated, see
Strickland v. Washington, 466 U.S. 668, 687, 694 (1984), nor would they debate the
District Court’s conclusion that her sentencing credit claim was previously litigated, see
United States v. DeRewal, 10 F.3d 100, 105 n.4 (3d Cir. 1993); see also Miller-El v.
Cockrell, 537 U.S. 322, 336 (2003). Appellant argues that the District Court did not
discuss part of her sentencing claim—that the delay in sentencing violated her
constitutional rights. But that claim does not deserve encouragement to proceed further,
see id., for two reasons. First, Appellant waived the claim by not raising it on direct

B1

Case: 19-3170

Document: 11-2

Page: 2

Date Filed: 04/10/2020

appeal, and she has failed to show cause and prejudice or a miscarriage of justice. See
Massaro v. United States, 538 U.S. 500 (2003). Second, to the extent she has raised the
claim as one involving ineffective assistance of counsel, she has not established that she
was prejudiced by her attorney’s failure to raise a delay-in-sentencing claim, as she was
not incarcerated during the delay and she alleges no prejudice to her appeal. Burkett v.
Cunningham, 826 F.2d 1208, 1222 (3d Cir. 1987), abrogated on other grounds by
Betterman v. Montana, 136 S. Ct. 1609 (2016).

By the Court,
s/ L. Felipe Restrepo
Circuit Judge
Dated: April 10, 2020
Lmr/cc: Angela de Jesus Concepcion
Mark E. Coyne

A True Copy:

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

B2

EXHIBIT C

Case 2:17-cv-12152-MCA Document 11 Filed 08/30/19 Page 1 of 11 PageID: 353

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY

Civil Action No. 17-12152 (MCA)

ANGELA DE JESUS-CONCEPCION,
Petitioner,

OPINION

v.
UNITED STATES OF AMERICA,
Respondent.

I.

INTRODUCTION
This matter has been opened to the Court by Petitioner Angela de Jesus-Concepcion’s

filing of a motion to vacate, set aside, or correct her sentence pursuant to 28 U.S.C.

§

2255.

(ECF No. I.) Respondent, the United States of America, opposes the motion. (ECF No. 6.)
Petitioner also filed a motion to expedite the Court’s decision. (ECF No. 9.) For the reasons set
forth below, Petitioner’s

§

2255 motion will be denied and a certificate of appealability shall not

issue. Petitioner’s motion to expedite will be dismissed as moot.
II.

FACTUAL BACKGROUND
On direct appeal. the Court of Appeals for the Third Circuit summarized Petftioner’s

underlying criminal proceeding as follows:
De Jesus—Concepcion was arrested on March 17, 2012, when she
attempted to reenter the United States through the Newark, New
Jersey, Airport using a false passport in the name of Isis Carolin
Pichardo, a name she also fraudulently signed to her customs
declaration. United States Customs and Border Protection (“CBP”)
officers identified de Jesus—Concepcion for inspection when, as
part of routine screening, they discovered that the passport on
which she was travelling had been issued under two different
applications with pictures of different women. Afier detaining her,

C1

Case 2:17-cv-12152-MCA Document 11 Filed 08/30/19 Page 2 of 11 PageID: 354

the officers checked her fingerprints in an immigration database
and confirmed her true identity, which did not match her passport
and customs declaration form.
Dc Jesus—Concepcion had also obtained a false drivers license and
Certificate of Naturalization with Ms. Pichardos information and
de Jesus—Concepcion’s photograph. She had used those documents
to apply for the false passport by claiming that her prior passport
had been lost. De Jesus—Concepcion wanted the false documents
for international travel because she was not a U.S. citizen and was
in this country illegally. She had been denied legal permanent
residency, and she had already been ordered to depart the United
States. As early as 1997, she had been arrested and placed into
removal proceedings. Subsequently, when her application for legal
permanent residency was denied in 2005, the notice informed her
that “[ijf you fail to depart from the United States, proceedings will
be instituted to enforce your departure.” (App. 1013.)
An indictment was handed down charging de Jesus—Concepcion
with false representation of U.S. citizenship, in violation of 18
U.S.C. § 911 (Count One); use ofa passport secured by false
statement, in violation of 18 U.S.C. § 1542 (Count Two); and
aggravated identity theft, in violation of 18 U.S.C. § l028A(a)(l)
(Count Three). After a jury trial, she was convicted of all three
counts and sentenced to 36 months’ imprisonment and three years’
supervised release. She timely appealed.

United States v deiesus—Concepcion, 652 F. App’x 134, 137-38 (3d Cir. 2016). On June 16,
2016, the Third Circuit denied Petitioner’s appeal and affirmed both her conviction and sentence.

See id. at 142. The United States Supreme Court denied Petitioner’s request for a writ of
certiorari. See deJesus-Concepcion v. United States, 137 S. Ct. 519 (2016).
Petitioner filed the instant

§ 2255

application on November 15, 2017. (ECF No. 1, at 22-

23.) Respondents submitted their answer opposing the motion. (ECF No. 6.) On June 12, 2019,
Petitioner filed a motion to expedite the Court’s decision. (ECF No. 9.)
III.

LEGAL STANDARI

A motion to vacate, set aside, or correct a sentence of a person in federal custody,
pursuant to 28 U.S.C.

§

2255, provides a prisoner relief if “the sentence was imposed in violation
2

C2

Case 2:17-cv-12152-MCA Document 11 Filed 08/30/19 Page 3 of 11 PageID: 355

of the Constitution or laws of the United States,” if “the court was without jurisdiction to impose
such sentence,” or if “the sentence was in excess of the maximum authorized by law, or is
otherwise subject to collateral attack.” 28 U.S.C.

§

2255(a). When considering a

§

2255 motion,

a district court “must accept the truth of the movant’s factual allegations unless they are clearly
frivolous on the basis of the existing record.” United States v. Tolliver, 800 F.3d 138, 141 (3d
Cir. 2015) (quoting United States v. Booth, 432 F.3d 542, 545 (3d Cir. 2005)). Additionally, a
district court must hold an evidentiary hearing on the motion if “the files and records do not
show conclusively that [the movant] was not entitled to relief” Id. (quoting Solis v. United
States, 252 F.3d 289, 294 (3d Cir. 2001) (alteration in original)).
IV.

ANALYSIS

a. Ineffective Assistance of Counsel
In her first ground for relief, Petitioner argues her trial counsel was ineffective for failing
to present certain mitigating evidence. (ECF No. 3, at 6-8.) Specifically, Petitioner contends her
trial counsel was “compelled” by the Government, via a motion to suppress, to exclude the
following evidence at trial: 1) Petitioner’s father died from terminal cancer prior to her arrest; 2)
Petitioner’s son had an incurable illness; 3) Petitioner’s mother was handicapped and in poor
health; 4) Petitioner faced deportation if convicted; 5) Petitioner’s “real relationship” with
witness Isis Pichardo “which would have served to impeach [Ms. Pichardo’sj testimony”; 6) Isis
Pichardo’s “actual involvement in the case”; and 7) the “existence of a conspiracy” between Isis
Pichardo and Lucia Pichardo. (Id. at 6-7.) Petitioner argues that if the jury had been provided
with this evidence, the verdict in the case would have been more favorable. (Id. at 7.)
In reply, the Government submits that only the evidence regarding Petitioner’s son and
her possible deportation were prohibited evidence at trial. (ECF No. 6, at 20-24.) The

3

C3

Case 2:17-cv-12152-MCA Document 11 Filed 08/30/19 Page 4 of 11 PageID: 356

Government states that five other topics Petitioner enumerates were not expressly barred by the
Court, although defense counsel was cautioned against introducing evidence for the purpose of
jury nullification. (Id.) The Government contends that Petitioner cannot establish her trial
counsel was ineffective for abiding by the trial court’s evidentiary rulings. The Government also
submits that Petitioner fails to demonstrate that even if the other five topics were introduced at
trial, that the result of the proceeding would have been different. (Id. at 26-34.)
Prior to Petitioner’s trial, the District Court did prohibit the introduction of evidence
regarding Petitioner’s son’s medical condition and evidence regarding her potential deportation
if convicted. (ECF No. 6-2, at 47, 67.) However, the District Court never expressly prohibited
the introduction of evidence concerning the health of Petitioner’s parents or the nature of
Petitioner’s relationship with Ms. Pichardo. (Id. at 44-67.) The Court did instruct defense
counsel not to pursue arguments intended to invite jury nullification. (Id. at 47.) Defense
counsel agreed that she would not. (Id.) Ultimately, no evidence concerning Petitioner’s
parents’ health was introduced at trial, but defense counsel did elicit substantial testimony from
Ms. Pichardo regarding the nature of her relationship with Petitioner. (Id. at 92-103; ECF No. 6,
at 21-22.)
The Sixth Amendment guarantees the accused the “right

...

to have the Assistance of

Counsel for his defense.” U.S. Const. amend. VI. The right to counsel is the right to the

effective assistance of counsel, and a defendant may be deprived of that right if their attorney
fails to render adequate legal assistance. See Strickland v. Washington, 466 U.S. 668, 686
(1984). The clearly established Supreme Court precedent governing ineffective assistance of
counsel claims is the two-pronged standard enunciated in Strickland. See id. at 687. Under the
first Strickland prong, a movant must demonstrate that “counsels representation fell below an

4

C4

Case 2:17-cv-12152-MCA Document 11 Filed 08/30/19 Page 5 of 11 PageID: 357

objective standard of reasonableness,” with reasonableness being judged under professional
norms prevailing at the time counsel rendered assistance. Id. at 688. Under the second

Strickland prong, a movant must demonstrate a reasonable probability that, but for counsel’s
error, the result of the proceeding would have been different. See jet, at 694. In determining
whether the Petitioner suffered prejudice, a court “must consider the totality of the evidence
before the judge or jury” as a verdict that is “only weakly supported by the record is more likely
to have been affected by errors than one with overwhelming record support.” Jet. at 695-96; see
also United Stares v Parker, 621 F. App’x 109, 111 (3d Cir. 2015) (“To make this [prejudice]
determination, we must consider the totality of the evidence at trial: The greater the support for a
verdict in the record, the less likely it is that the verdict was affected by errors of counsel.”).
Importantly, “[am assessment of the likelihood of a result more favorable to the defendant must
exclude the possibility of arbitrariness, whimsy, caprice, ‘nullification,’ and the like.”
Strickland, 466 U.S. at 695.
Here, Petitioner’s ineffective assistance of counsel claim is without merit. First, as the
Government emphasizes, defense counsel was not deficient for abiding by the District Court’s
evidentiary ruling. Under Supreme Court precedent, “[a]n order issued by a court with
jurisdiction over the subject matter and person must be obeyed by the parties until it is reversed
by orderly and proper proceedings.” United States v, United Mine Workers, 330 U.S. 258, 293
(1947). The fact that defense counsel did not introduce the impermissible evidence of
Petitioner’s son’s health and her possible deportation does not demonstrate that defense counsel
acted unreasonably under “prevailing professional norms” or that her performance “fell below an
objective standard of reasonableness.” Strickland, 466 U.S. at 688. Rather, Supreme Court

5

C5

Case 2:17-cv-12152-MCA Document 11 Filed 08/30/19 Page 6 of 11 PageID: 358

precedent dictates that the abiding norm for attorneys is to obey a court’s orders unless or until
that order is reversed.
Second, although Petitioner alleges the nature of her relationship with Ms. Pichardo was
not presented at trial, defense counsel extensively cross-examined Ms. Pichardo about her
relationship with Petitioner. (ECF No. 6-2, at 92-103.) Indeed, this was the majority of the
testimony elicited from Ms. Pichardo by defense counsel. (Id.) In her

§

2255 motion, Petitioner

only provides the bare allegation that testimony regarding her “real relationship” with Ms.
Pichardo and testimony regarding “the existence of a conspiracy” between Ms. Pichardo and her
mother should have been introduced to impeach Ms. Pichardo. (ECF No. 3. at 6-7.) However,
“bald assertions and conclusory allegations” are insufficient to establish an ineffective assistance
of counsel claim. See Palmer v. Hendricks, 592 F.3d 386, 395 (3d Cir. 2010). Absent additional
information, Petitioner has not demonstrated that trial counsel was deficient for failing to elicit
certain testimony regarding her relationship with Ms. Pichardo, especially given that defense
counsel thoroughly cross-examined Ms. Pichardo on this general issue.
Finally, Petitioner is also unable to demonstrate that she suffered any prejudice. The
totality of the evidence against Petitioner was overwhelming. At trial, customs and border patrol
agent Richard Moses testified that after screening Petitioner, she provided him with a passport
and a New Jersey driver’s license each depicting her photo, but each bearing the name Isis
Pichardo. See United States v. de Jesus-Concepcion, Crim. No. 13-00084, ECF No. 53, at 35-37
(D.N.J.). When Petitioner was fingerprinted, Officer Moses discovered that Petitioner was not
Isis Pichardo, but rather, Angela de Jesus-Concepcion. Id. at 36-37. Evidence was presented
that Petitioner was born in, and a citizen of, the Dominican Republic and not the United States.
See Ed., ECF No. 62, at 18-28. An audio recording of Petitioner admitting to this fact during an

6

C6

Case 2:17-cv-12152-MCA Document 11 Filed 08/30/19 Page 7 of 11 PageID: 359

immigration hearing was also introduced. (ECF No. 6-2, at 31.) Additionally, evidence was
introduced that Petitioner used isis Pichardo’s social security number and birth date to obtain a
Certificate of Naturalization and a New Jersey driver’s license in Ms. Pichardo’s name. See de
Jesus-Concepcion, Crim. No. 13-00084, ECF No. 62, at 163-169 & ECF No. 53, at 90-91.
Accordingly, as the District Court pointed out, “the record is copious with evidence, direct and
circumstantial, of [Petitioner’s} guilt on each count.” See Ia’., ECF No. 62, at 163-169. Given
the overwhelming amount of evidence against Petitioner, any evidence defense counsel may
have introduced about Petitioner’s parent’s health or her “real” relationship with Ms. Pichardo
would have not changed the outcome of her trial or whether she was guilty of false
representation of U.S. citizenship, use of a passport secured by false statement, or aggravated
identity theft to a reasonable probability. Accordingly, Petitioner is not entitled to relief on this
claim.
b. Sentencing Challenge
In Petitioner’s second ground for relief, she argues that the District Court failed to credit
the time she served on house arrest towards her prison sentence. (ECF No. 3, at 8-12.) After
Petitioner was convicted at trial, the Government moved for Petitioner to be immediately
detained. See c/c Jesus-Concepcion, Crim. No. 13-00084, ECF No. 51 at 92. Petitioner
requested to remain on bond until her sentencing date. See id. at 96. The District Court
ultimately placed Petitioner under house arrest and indicated that her time may be credited
towards her sentence. See id. at 101. At her sentencing hearing, Petitioner ultimately received
thirty-six months imprisonment. See Id.. ECF No. 70, at 49. In the instant motion, Petitioner
argues the District Court violated her rights by failing to credit her for the time she spent on
home confinement. (ECF No. 3. at 8-9.)

7

C7

Case 2:17-cv-12152-MCA Document 11 Filed 08/30/19 Page 8 of 11 PageID: 360

At the outset, this Court notes that Petitioner has already completed her thirty-six month
sentence. (ECF No. 9, at 1.) Under Article III, Section 2 of the United States Constitution, there
must exist a live case or controversy where “the plaintiff must have suffered, or be threatened
with, an actual injury traceable to the defendant and likely to be redressed by a favorable judicial
decision” in order fora federal court to retainjurisdiction. Spencer v. Kemna, 523 U.S. 1,7
(1998). Generally, when a habeas petitioner challenges her underlying conviction and is released
from confinement during the pendency of her habeas application, federal courts will presume
that “a wrongful criminal conviction has continuing consequences” that are sufficient to satis’
the injury requirement. See Id. at 8. However, when a petitioner attacks a now-expired sentence,
the injury requirement is not presumed, and the petitioner must demonstrate “some concrete and
continuing injury other than the now-ended incarceration or parole.” Id. at 7; see also United
States v Kissinger. 309 F.3d 179, 180 (3d Cir. 2002). Here, Petitioner has not alleged any
continuing collateral consequences stemming from her sentencing claim. See Spencer, 523 U.s.
at 14 (holding that it is the petitioner’s burden to demonstrate any continuing injuries or
collateral consequences); see also Kissinger, 309 F.3d at 181. Without any allegation by
Petitioner that she suffers from any continuing injuries or collateral consequences, she has not
satisfied Article III’s case-and-controversy requirement. See Smith v, Danberg, 928 F.Supp.2d
812, 812 (D. Del. 2013) (citing Spencer, 523 U.S. at 7).
Moreover, a defendant is only considered detained “when [they are) committed to the
custody of the Attorney General.” See Reno v. Koray, 515 U.S. 50,57(1993). Defendants who
are released on bail, even under restrictive conditions such as home confinement, are deemed
released. See West v. Warden Fort Dix FCJ, 740 F. App’x 237, 238 (3d Cir. 2018) (citing Koray,
515 U.S. at 65). A defendant who has been released on home confinement is not entitled to

8

C8

Case 2:17-cv-12152-MCA Document 11 Filed 08/30/19 Page 9 of 11 PageID: 361

credit against their sentence for that time. See id. at 238. Here, since Petitioner was on home
confinement she is deemed “released” during that time period and would not have been entitled
to credit towards her sentence for that time. See Id. (holding that the petitioner was “not entitled
to credit for the time that he spent

...

on home confinement”) Additionally, it is the Bureau of
.

Prisons (“BOP”) and not the Judiciary who determine the credits to which prisoners are entitled.
See O’Shea v United States, Civ. No. 04-50 16, 2005 WL 3440628, at *3 (D.N.J. Dec. 13,
20015) (citing Reno v. Koray, 515 U.S. 50, 54 (1993)); see also United States v Wilson, 503
U.S. 329, 335 (1992) (“Because the offender has a right to certain jail-time credit under

§

3585(b), and because the district court cannot determine the amount of the credit at sentencing,
the Attorney General has no choice but to make the determination as an administrative matter
when imprisoning the defendant.”). Thus, even if Petitioner could have received credit for the
lime she spent on home confinement, it is the BOP and not the Judiciary that is charged with
determining those credits.
Furthermore, it appears that Petitioner already raised this argument on her direct appeal.
(ECF No. 6-2, at 152-53.) In Petitioner’s brief to the Third Circuit she argued that ifindamental
fairness and Due Process mandated she receive credit for the time she spent on house arrest.
(ECF No. 6-2 at 152-53.) The Government responded to this claim in their brief arguing that,
pursuant to Koray, defendants serving time on home confinement were not entitled to jail
credits. (ECF No. 6, at 36-37.) Although this issue was not explicitly addressed by the Third
Circuit in their opinion, the Third Circuit affirmed Petitioner’s sentence. See de Jesus
Concepcion, 652 F. App’x at 141-42.
A petitioner may not use a

§

2255 motion to “relitigate questions which were raised and

considered on direct appeal.” Villalobos v. United States, Civ. No. 16-344, 2016 WL 416359, at

9

C9

Case 2:17-cv-12152-MCA Document 11 Filed 08/30/19 Page 10 of 11 PageID: 362

*2 (D.N.J. Feb. 1,2016) (quoting United States v. DeRewal, 10 F.3d 100, 105, n.4 (3d Cir.
1993fl; see also United States v. Travillion, 759 F.3d 281, 288 (3d Cir. 2014) (“issues resolved
in a prior direct appeal will not be reviewed again by way of § 2255 motion”). Here, Petitioner’s
argument regarding jail credit for time served on house arrest has already been raised on direct
appeal. Petitioner is not entitled to relitigate the same claim again in the instant

§

2255 motion.

Accordingly, Petitioner is not entitled to relief on this claim.
c. Motion to Expedite
On June 12, 2019, Petitioner also filed a motion to expedite the Court’s decision. (ECF
No. 9.) Since Petitioner’s

§ 2255

motion is being denied for the reasons stated above, her motion

to expedite will be dismissed as moot.
d. Certificate of Appealability
Pursuant to 28 U.S.C.

§

2253(c), unless a circuit justice orjudge issues a certificate of

appealability (“COA”), an appeal may not be taken from a final order in a proceeding under 28
U.S.C.

§ 2254.

A certificate of appealability may issue “only if the applicant has made a

substantial showing of the denial of a constitutional right.” 28 u.s.c.

§

2253(c)(2). “A petitioner

satisfies this standard by demonstrating that jurists of reason could disagree with the district
courts resolution of his constitutional claims or that jurists could conclude the issues presented
are adequate to deserve encouragement to proceed further.” Miller—El v. Cockrell, 537 U.S. 322,
327 (2003). Here, reasonable jurists would not disagree with the Courfs decision. Accordingly,
a certificate of appealability shall issue.

10

C10

Case 2:17-cv-12152-MCA Document 11 Filed 08/30/19 Page 11 of 11 PageID: 363

V.

CONCLUSION
For the reasons explained in this Opinion, Petitioner’s

§

2255 motion will be denied and

her motion to expedite is also denied. The Court declines to issue a certificate of appealability.
An appropriate Order follows.

Dated:

?:
Madeline Cox Arleo, District Judge
United States District Court

11

C11

Case 2:17-cv-12152-MCA Document 12 Filed 08/30/19 Page 1 of 1 PageID: 347

CASE CL’2E:3D
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY

Civil Action No. 17-12152 (MCA)

ANGELA 1W JESUS-CONCEPCION,
Petitioner,

ORDER

v.
UNITED STATES OF AMERICA,
Respondent.

This matter having come before the Court on Petitioner Angela de Jesus-Concepcion’s
filing of a motion to vacate, set aside, or correct her sentence pursuant to 28 U.S.C.

§

2255; and

the Court having considered the motion. the answer of the Respondent, the record of the
proceedings in this matter; and this matter being considered pursuant to Fed. R. Civ. P. 78; and
for the reasons set forth in the Court’s Opinion filed herewith,
IT IS on this ay of

,2019,

ORDERED that Petitioner’s motion to vacate, set aside, or correct her sentence pursuant
to 28 U.S.C.

§

2255 (ECF No. 3)is DENIED; and it is further

ORDERED that Petitioner’s motion to expedite (ECF No. 9) is DISMISSED AS
MOOT; and it is further
ORDERED that a certificate of appealability shall not issue; and it is further
ORDERED that the Clerk of the Court shall send a copy of this Order and
accompanying Opinion to Petitioner at the address on file; and it is further
ORDERED that the Clerk shall mark this case as CLOSED.

Madeline Cox Arleo, District Judge
United States District Court

C12

